Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Clovis Police Department
Clovis, California

GR-90-03-002


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Clovis, California Police Department (CPD).  The purpose of the grants is to enhance community policing.  The CPD was awarded a total of $1,332,347 to hire 12 new police officers and redeploy the equivalent of 8.6 existing full-time police officers from administrative duties to community policing.
We reviewed the CPD's compliance with seven essential grant conditions and we found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, redeployment tracking, community policing, and retention of officer positions.  We questioned $1,999 in grant funds received as a result of the deficiency identified below:1
The CPD did not provide the appropriate amount of local match funds for the MORE 98 grant, which resulted in the CPD receiving excess reimbursement.
This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  See Appendix III for a breakdown of our dollar-related finding and for a definition of questioned costs.